Case: 21-1020

Document: 13

Page: 1

Filed: 12/0172020

NOTE: This order is nonprecedential.

®ntteb States Court of ^ppeate
for tfjc jfeberal Circuit
RAEVON TERRELL PARKER,
Plaintiff-Appellant
v.
APPLE INC.,
Defendant-Appellee
2021-1020
Appeal from the United States District Court for the
Eastern District of Missouri in No. 4:20-cv-00731-SEP,
Judge Sarah E. Pitlyk.
ON MOTION
Per Curiam.
ORDER
Raevon Terrell Parker moves for leave to proceed in
forma pauperis (“IFP”). We deny the motion and dismiss.
Mr. Parker sued Apple Inc. in federal district court, as­
serting violations of his Fifth Amendment rights because
'his property was taken for public use and he had not been
compensated.” Parker v. Apple Inc., No. 20-cv-731 (E.D.
Mo. June 1, 2020), ECF No. 1 at 3. Air. Parker specifically

Case: 21-1020

2

Document: 13

Page: 2

Filed: 12/01/2020

PARKER v. APPLE INC.

alleged that he “went into the Apple Store in Saint Louis
Galleria for a malfunction of his cellular phone” and “the
attendant in the Apple store fixed the device but kept it by
dec[ei]ving [Mr. Parker].” Id. at. 4. Mr. Parker asked for a
trillion dollars in damages. Id.
Along with his complaint, Mr. Parker submitted a doc­
ument entitled Motion for Mechanics/Materialmen’s Lien,
that Mr. Parker had previously filed in state court, alleging
that he aided in the creation of iOSl2. The same day he
filed his complaint, Mr. Parker also submitted a Report of
the Filing or Determination of an Action Regarding Patent
or Trademark, in which he checked the box for “Patents”
and under the box for fisting Patents or Trademarks wrote
“IOS 12,0,1 and later” and “iOS 13 and later.” Parker v.
Apple Inc., No. 20-cv-731 (E.D. Mo. June 1, 2020), ECF No.
3.

The court granted Mr. Parker’s motion for IFP and
then dismissed the complaint as frivolous and for failure to
state a claim, noting, among other things, that Mr. Parker
“pleads no facts regarding how Apple Inc. put his property
to 'public use,’” “pleads no facts in support of his assertion
that he holds a patent to Apple software” and does not “pro­
vide documentation that he has actually been issued such
a patent.” Parker v. Apple Inc., No. 20-cv-731, slip op. at 4
(E.D. Mo. July 30, 2020). In addition to dismissing, the
district court certified that an appeal by Mr. Parker would
not be taken in good faith. Mr. Parker now appeals to this
court and moves for leave to proceed IFP.
Having reviewed the complaint, the court’s decision,
and opening brief, we cannot say that Mr. Parker has
raised a non-frivolous argument that the court erred in dis­
missing his complaint or in concluding that an appeal
would not be taken in good faith. We therefore dismiss this
appeal and deny Ms motion. See 28 U.S.C. § 1915(e)(2)(B)
( [T]he court shall dismiss the case at any time if the court

Case: 21-1020

Document: 13

Page: 3

Filed: 12/01/2020

3

PARKER V. APPLE INC.

determines that . . . [the] appeal ... is frivolous.”).* The
court warns Mr. Parker that future frivolous filings can re­
sult in court sanctions, including penalties and fines.
Accordingly,
It Is Ordered That:
(1) The motion for leave to proceed IFP is denied.
(2) The appeal is dismissed.
(3) Each side shall bear its own costs.
For the Court
December 01. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

s25

While it does not appear that the complaint raised
a non-frivolous claim under the patent laws or under the
Little Tucker Act to give this court jurisdiction, dismissal
rather than transfer is appropriate because it is not in the
interest of justice to transfer a case to any court to adjudi­
cate a frivolous appeal. See Britell v. United States, 318
F.3d 70, 75 (1st Cir. 2003) (noting that “it is in the interest
of justice to dismiss [a frivolous appeal] rather than to keep
it on life support (with the inevitable result that the trans­
feree court will pull the plug)” (citations omitted)).

Case. 4.20-CV-00731-SEP Doc. #: 9 Filed: 07/30/20 Page: 1 of 6 PagelD #: 59

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
RAEVON TERRELL PARKER,
Plaintiff,
v.
APPLE INC.,
Defendant.

)
)
)
)
)
)
)
)
)

No. 4:20-cv-731-SEP

MEMORANDUM AND ORDER
This matter is before the Court upon the motion of Plaintiff Raevon Terrell Parker for
leave to proceed in forma pauperis in this civil action. Upon consideration of the motion

and the

financial information provided therein, the Court concludes that Plaintiff is unable to pay the
filing fee. The motion will therefore be granted. Additionally, for the reasons discussed below,
the Court will dismiss the complaint.
Legal Standard on Initial Review
According to 28 U.S.C. § 1915(e)(2), this Court is required to review a complaint filed in
forma pauperis and to dismiss it if it is frivolous, malicious, or fails to state a claim upon which
relief may be granted. An action fails to state a claim upon which relief may be granted if it does
not plead “enough facts to state a claim to relief that is plausible on its face.” Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 570 (2007). An action is frivolous if it “lacks an arguable basis in
either law or fact.” Neitzke v. Williams, 490 U S. 319, 328 (1989). The term “‘frivolous,’ when
applied to a complaint, embraces not only the inarguable legal conclusion, but also the fanciful
factual allegation. Id. While federal courts should not dismiss an action commenced in forma
pauperis if the facts alleged are merely unlikely, the court can properly dismiss such an action if
it finds the allegations are “clearly baseless.” Denton v. Hernandez, 504 U.S. 25, 32-33 (1992)

Case: 4:20~cv-00731-SEP Doc. #: 9 Filed: 07/30/20 Page: 2 of 6 PagelD #: 60

(citing Neitzke, 490 U. S. 319). Allegations are clearly baseless if they are “fanciful,” “fantastic ”
or “delusional,” or if they “rise to the level of the irrational or the wholly incredible.” Id.
The Complaint
Plaintiff filed the complaint on June 1, 2020, against Apple Inc. He invokes this Court’s
jurisdiction on the basis of diversity of citizenship. In support, he avers that he is a Missouri
citizen, Apple Inc. is a California citizen, and the amount in controversy “deals with

revenue in

the amount of trillion dollar status.” Plaintiff also appears to invoke this Court’s federal question
jurisdiction, as in the relevant section of the complaint form he writes: “Amendment V: personal
property was taken for public use and the plaintiff has not been compensated.”
In setting forth his claim and prayer for relief, Plaintiff writes:
On October 29, 2018 Raevon Parker went to the Apple Store in the Saint Louis
Galleria for a malfunction of his cellular device. The attendant in the Apple Store
fixed the device but kept it by deceiving the Plaintiff knowing that it was the first
phone to have new features.
The damages that the plaintiff is seeking is a trillion dollars. Due to
hospitalizations, travel, distress, humiliation, embarrassment, defamation of
character, I don t think that the plaintiff can be compensated for being labeled
crazy.
Attached to the complaint are descriptions of features of Apple operating systems. Also
attached are documents from an adjudicated civil action that plaintiff filed in Missouri state court
against “Apple Saint Louis Galleria,” styled Parker v. Apple Saint Louis Galleria, No. 18SLCC03653 (21st Jud. Cir. 2018). Review of the attached documents, along with independent
review of the publicly available Missouri state court records in that case, shows the following:
Plaintiff claimed, inter alia, to have aided in the creation of Apple software. In a document
dated March 28, 2019, a copy of which Plaintiff attached to the instant complaint, he sought
damages in the amount of “$1 trillion USD” to compensate him for “iPhone 7,” “$1 trillion

2

Case: 4:20-cv-00731-SEP Doc. #: 9 Filed: 07/30/20 Page: 3 of 6 PagelD #: 61

USD” to compensate him for “iOS 12,” and “$ priceless-USD” to compensate him for “Raevon
Terrell Parker’s mentality,” for a total of “$2 priceless trillion USD.” He claimed an additional
$900 for “rental machinery or equipment” identified as “iPhone 7,” for a grand total of “$2
trillion and $900 USD and a priceless item.” On May 24, 2019, the case was dismissed upon the
Court granting the defendant’s motion to dismiss for failure to state a claim upon which relief
may be granted.
On the same day Plaintiff filed the instant complaint, he filed a document titled “Report
on the Filing or Determination of an Action Regarding a Patent or Trademark.”
In the document,
Plaintiff avers he holds a patent on “iOS 12.0.1 and later.” On July 16, 2020, Plaintiff filed a
motion asking this Court to grant him a default judgment in the amount of“$1.011 trillion
dollars.” He suggested that Apple Inc. had been served with process and provided a “Certificate
of Service for Pro Se Documents” to show he had mailed to Apple Inc. screen shots regarding
various software. On July 21, 2020, Apple Inc. filed a motion asking this Court to set a deadline
to respond to the complaint, noting that while it had not been served with process in accordance
withFederal_Rulesof.CiviLProcedureA,ithad-become-aware-of-thislawsuitthrough a report.
On July 23,2020, Plaintiff filed a motion asking this Court to accept copies of an email
exchange between himself and a third party as proof of service, and on July 29, 2020, he filed a
copy of a summons, a request for waiver of service, and additional copies of documents from the
above-referenced state court action.
Discussion
The Court has serious reservations about whether this case involves a dispute or
controversy properly within its jurisdiction. While Plaintiff invokes jurisdiction on the basis of
diversity of citizenship, his assertion of the amount in controversy is implausible. Plaintiff

3

Case: 4:20-cv-00731-SEP Doc. #: 9 Filed: 07/30/20 Page: 4 of 6 PageiD #: 62

provides no adequate foundation for his belief that his damages are properly measured at “a
trillion dollars,” or that they are even sufficient to meet the jurisdictional threshold.
Additionally, the complaint contains no non-conclusory allegations permitting the conclusion
that Plaintiff s claims arise under federal law, as necessary to invoke jurisdiction under 28 U.S.C.
§ 1331. Having noted its reservations, the Court will presume, for the sole purpose of
conducting the required review of the complaint, that subject matter jurisdiction is present.
Having thoroughly reviewed and liberally construed the complaint, the Court concludes
that it does not contain sufficient facts to state a plausible claim for relief against Apple Inc.
Plaintiff pleads no facts regarding how Apple Inc. put his property to “public use,” and he pleads
no facts regarding the nature of the alleged device malfunction or why he believes he is entitled
to relief because of it. He pleads no facts explaining why he believes his device “was the first
phone to have new features” or how that is relevant to any potential cause of action. He pleads
no facts in support of his assertion that he holds a patent to Apple software; neither does he
provide documentation that he has actually been issued such a patent. While Plaintiff asserts that
a store attendant committed theft, he alleges nothing to ground an inference that Apple Inc. is
liable for such theft. Plaintiff also fails to allege facts regarding the “hospitalizations, travel,
distress, humiliation, embarrassment, defamation of character” for which he seeks to hold Apple
Inc. responsible. Finally, as noted above, he provides no plausible basis for his asserted
entitlement to “a trillion dollars” in damages.
While this Court must liberally construe pro se filings, this Court may not construct a
legal theory for Plaintiff or assume facts he has not alleged. See Stone v. Harry, 364 F.3d 912
914-15 (8th Cir. 2004) (refusing to supply additional facts or to construct a legal theory for the
pro se plaintiff that assumed facts that had not been pleaded). Accordingly, the Court concludes

Case: 4:20-cv-0073l-SEP Doc. #: 9 Filed: 07/30/20 Page: 5 of 6 PagelD #: 63

that the complaint is subject to dismissal because it fails to state a claim upon which relief may
be granted. The Court also concludes that the complaint is subject to dismissal because it is
frivolous, as Plaintiff s statement of his claim and prayer for “a trillion dollars” in damages are
“clearly baseless” under the standard set forth in Neitzke and Denton.
The Court will also deny Plaintiff s motion for default judgment and his motion seeking
leave to submit emails as proof of service. The motions are moot, inasmuch as this case is being
dismissed at this time. The motions are also meritless. As noted above, because Plaintiff filed
this action informa pauperis, the complaint was subject to pre-service review. Accordingly,
Apple Inc. was not required to respond to the complaint. Additionally, the Court notes that
Plaintiff s averments and filings would not establish that Apple Inc. was served in accordance
with Rule 4 of the Federal Rules of Civil Procedure. Finally, the Court will deny as moot Apple
Inc.’s Motion to Set Deadline to Respond to Complaint.
Accordingly,
IT IS HEREBY ORDERED that Plaintiff s motion seeking leave to commence this
action without prepaying fees or costs (Doc. [2]) is GRANTED.
IT IS FURTHER ORDERED that this case is DISMISSED. A separate order of
dismissal will be entered herewith.
IT IS FURTHER ORDERED that Plaintiff s motions seeking default judgment (Doc
[4]) and leave to submit email and attachment (Doc. [7]) are DENIED as moot.
IT IS FURTHER ORDERED that Apple Inc.’s Motion to Set Deadline to Respond to
Complaint (Doc. [6]) is DENIED as moot.
IT IS HEREBY CERTIFIED that an appeal from this dismissal would not be taken in
good faith.

5

Case: 4:20-cv-00731-SEP Doc. #: 9 Filed: 07/30/20 Page: 6 of 6 PagelD #: 64

Dated this 30th day of July, 2020.
/)

i
ClA\.

/

SARAH E. PITLYK
UNITED STATES DISTRICT JUDGE

6

Case: 4:20-cv-00731-SEP Doc.#: 9 Filed: 07/30/20 Page: 1 of 6 Page ID #: 59

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
RAEVON TERRELL PARKER,
Plaintiff,
v.
APPLE INC.,
Defendant.

>
)
)
)
)
)
)
)
)

No. 4:20-cv-731-SEP

MEMORANDUM AND ORDER
This matter is before the Court upon the motion of Plaintiff Raevon Terrell Parker for
leave to proceed in forma pauperis in this civil action. Upon consideration of the motion and the
financial information provided therein, the Court concludes that Plaintiff is unable to pay the
filing fee. The motion will therefore be granted. Additionally, for the reasons discussed below,
/

the Court will dismiss the complaint.
Legal Standard on Initial Review
According to 28 U.S.C. § 1915(e)(2), this Court is required to review a coimplaint filed in
forma pauperis and to dismiss it if it is frivolous, malicious, or fails to state a claim upon which
relief may be granted. An action fails to state a claim upon which relief may be granted if it does
not plead “enough facts to state a claim to relief that is plausible on its face.” Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 570 (2007). An action is frivolous if it “lacks an arguable basis in
either law or fact.” Neitzkev. Williams, 490 U.S. 319, 328 (1989). The term “‘frivolous,’ when
applied to a complaint, embraces not only the inarguable legal conclusion, but also the fanciful
factual allegation.” Id. While federal courts should not dismiss an action commenced in forma
pauperis if the facts alleged are merely unlikely, the court can properly dismiss such an action if
it finds the allegations are “clearly baseless.” Denton v. Hernandez, 504 U.S. 25, 32-33 (1992)

Case: 4:20-cv-00731-SEP Doc.#: 9 Filed: 07/30/20 Page: 3 of 6 PagelD#: 61

USD” to compensate him for “iOS 12,” and “$ priceless-USD” to compensate him for “Raevon
Terrell Parker’s mentality,” for a total of “$2 priceless trillion USD.” He claimed an additional
$900 for “rental machinery or equipment” identified as “iPhone 7,” for a grand total of “$2
trillion and $900 USD and a priceless item.” On May 24, 2019, the case was dismissed upon the
Court granting the defendant’s motion to dismiss for failure to state a claim upon which relief
may be granted.
On the same day Plaintiff filed the instant complaint, he filed a document titled “Report
on the Filing or Determination of an Action Regarding a Patent or Trademark.” In the document,
Plaintiff avers he holds a patent on “iOS 12.0.1 and later.” On July 16, 2020, Plaintiff filed a
motion asking this Court to grant him a default judgment in the amount of “$1,011 trillion
dollars.” He suggested that Apple Inc. had been served with process and provided a “Certificate
of Service for Pro Se Documents” to show he had mailed to Apple Inc. screen shots regarding
various software. On July 21, 2020, Apple Inc. filed a motion asking this Court to set a deadline
to respond to the complaint, noting that while it had not been served with process in accordance
with Federal Rules of Civil Procedure 4, it had become aware of this lawsuit through a report.
On July 23, 2020, Plaintiff filed a motion asking this Court to accept copies of an email
exchange between himself and a third party as proof of service, and on July 29, 2020, he filed a
copy of a summons, a request for waiver of service, and additional copies of documents from the
above-referenced state court action.
Discussion
The Court has serious reservations about whether this case involves a dispute or
controversy properly within its jurisdiction. While Plaintiff invokes jurisdiction on the basis of
diversity of citizenship, his assertion of the amount in controversy is implausible. Plaintiff

3

Case: 4:20-cv-00731-SEP Doc.#: 9 Filed: 07/30/20 Page: 4 of 6 Page ID #: 62

provides no adequate foundation for his belief that his damages are properly measured at “a
trillion dollars,” or that they are even sufficient to meet the jurisdictional threshold.
Additionally, the complaint contains no non-conclusory allegations permitting the conclusion
that Plaintiffs claims arise under federal law, as necessary to invoke jurisdiction under 28 U.S.C.
§ 1331. Having noted its reservations, the Court will presume, for the sole purpose of
conducting the required review of the complaint, that subject matter jurisdiction is present.
Having thoroughly reviewed and liberally construed the complaint, the Court concludes
that it does not contain sufficient facts to state a plausible claim for relief against Apple Inc.
Plaintiff pleads no facts regarding how Apple Inc. put his property to “public use,” and he pleads
no facts regarding the nature of the alleged device malfunction or why he believes he is entitled
to relief because of it. He pleads no facts explaining why he believes his device “was the first
phone to have new features” or how that is relevant to any potential cause of action. He pleads
no facts in support of his assertion that he holds a patent to Apple software; neither does he
provide documentation that he has actually been issued such a patent. While Plaintiff asserts that
a store attendant committed theft, he alleges nothing to ground an inference that Apple Inc. is
liable for such theft. Plaintiff also fails to allege facts regarding the “hospitalizations, travel,
distress, humiliation, embarrassment, defamation of character” for which he seeks to hold Apple
Inc. responsible. Finally, as noted above, he provides no plausible basis for his asserted
entitlement to “a trillion dollars” in damages.
While this Court must liberally construe pro se filings, this Court may not construct a
legal theory for Plaintiff or assume facts he has not alleged. See Stone v. Harry, 364 F.3d 912,
914-15 (8th Cir. 2004) (refusing to supply additional facts or to construct a legal theory for the
pro se plaintiff that assumed facts that had not been pleaded). Accordingly, the Court concludes

4

Case: 4:20-cv-00731-SEP Doc. #: 9 Filed: 07/30/20 Page: 5 of 6 PagelD #: 63

that the complaint is subject to dismissal because it fails to state a claim upon which relief may
be granted. The Court also concludes that the complaint is subject to dismissal because it is
frivolous, as Plaintiffs statement of his claim and prayer for “a trillion dollars” in damages are
“clearly baseless” under the standard set forth in Neitzke and Denton.
The Court will also deny Plaintiffs motion for default judgment and his motion seeking
leave to submit emails as proof of service. The motions are moot, inasmuch as this case is being
dismissed at this time. The motions are also meritless. As noted above, because Plaintiff filed
this action in forma pauperis, the complaint was subject to pre-service review. Accordingly,
Apple Inc. was not required to respond to the complaint. Additionally, the Court notes that
Plaintiffs averments and filings would not establish that Apple Inc. was served in accordance
with Rule 4 of the Federal Rules of Civil Procedure. Finally, the Court will deny as moot Apple
Inc.’s Motion to Set Deadline to Respond to Complaint.
Accordingly,
IT IS HEREBY ORDERED that Plaintiffs motion seeking leave to commence this
action without prepaying fees or costs (Doc. [2]) is GRANTED.
IT IS FURTHER ORDERED that this case is DISMISSED. A separate order of
dismissal will be entered herewith.
IT IS FURTHER ORDERED that Plaintiffs motions seeking default judgment (Doc.
[4]) and leave to submit email and attachment (Doc. [7]) are DENIED as moot.
IT IS FURTHER ORDERED that Apple Inc.’s Motion to Set Deadline to Respond to
Complaint (Doc. [6]) is DENIED as moot.
IT IS HEREBY CERTIFIED that an appeal from this dismissal would not be taken in
good faith.

5

Case: 4:20-cv-00731-SEP Doc.#: 9 Filed: 07/30/20 Page: 6 of 6 PagelD #: 64

Dated this 30th day of July, 2020.

SARAH E. PITLYK
UNITED STATES DISTRICT JUDGE

6

